<html>
<title> - PROTECTING PUBLIC AND ANIMAL HEALTH: HOMELAND SECURITY AND THE FEDERAL VETERINARIAN WORKFORCE</title>
<body><pre>[Senate Hearing 111-232]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-232
 
                  PROTECTING PUBLIC AND ANIMAL HEALTH: 
                   HOMELAND SECURITY AND THE FEDERAL 
                         VETERINARIAN WORKFORCE 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-491 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
RONALD W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

        Lisa M. Powell, Chief Counsel and Acting Staff Director
             Joel C. Spangenberg, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
          Thomas A. Bishop, Minority Professional Staff Member
                   Benjamin B. Rhodeside, Chief Clerk

















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                      Thursday, February 26, 2009

Lisa R. Shames, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................     4
Nancy H. Kichak, Associate Director for Strategic Human Resources 
  Policy, U.S. Office of Personnel Management....................     5
Gerald W. Parker, DVM, Ph.D., MS, Principal Deputy Assistant 
  Secretary, Office of the Assistant Secretary for Preparedness 
  and Response, U.S. Department of Health and Human Services.....     6
Jill M. Crumpacker, Director, Office of Human Capital Management, 
  U.S. Department of Agriculture.................................     8
Thomas J. McGinn, III, DVM, Chief Veterinarian and Director, 
  Food, Agriculture, and Veterinary Defense Division, Office of 
  Health Affairs and Office of the Chief Medical Officer, U.S. 
  Department of Homeland Security................................     9
W. Ron DeHaven, DVM, MBA, Chief Executive Officer, American 
  Veterinary Medical Association.................................    19
Michael Gilsdorf, DVM, Executive Vice President, National 
  Association of Federal Veterinarians...........................    20
Marguerite Pappaioanou, DVM, MPVM, Ph.D., Dip ACVPM, Executive 
  Director, Association of American Veterinary Medical Colleges..    21

                     Alphabetical List of Witnesses

Crumpacker, Jill M.:
    Testimony....................................................     8
    Prepared statement...........................................    59
DeHaven, W. Ron, DVM, MBA:
    Testimony....................................................    19
    Prepared statement...........................................    80
Gilsdorf, Michael, DVM:
    Testimony....................................................    20
    Prepared statement with an attachment........................    88
Kichak, Nancy H.:
    Testimony....................................................     5
    Prepared statement...........................................    39
McGinn, Thomas J., III, DVM:
    Testimony....................................................     9
    Prepared statement...........................................    64
Pappaioanou, Marguerite, DVM, MPVM, Ph.D., Dip ACVPM:
    Testimony....................................................    21
    Prepared statement...........................................    99
Parker, Gerald W., DVM, Ph.D., MS:
    Testimony....................................................     6
    Prepared statement with an attachment........................    42
Shames, Lisa R.:
    Testimony....................................................     4
    Prepared statement...........................................    29

                                APPENDIX

Questions and Responses for the Record from:
    Ms. Shames...................................................   113
    Ms. Kichak...................................................   115
    Dr. Parker...................................................   122
    Ms. Crumpacker...............................................   126
    Dr. McGinn...................................................   135
    Dr. Gilsdorf.................................................   138
    Dr. Pappaioanou..............................................   142
Background.......................................................   160
GAO report entitled ``Veterinarian Workforce, Actions Are Needed 
  to Ensure Sufficient Capacity for Protecting Public and Animal 
  Health,'' GAO-09-178, February 2009............................   165


PROTECTING PUBLIC AND ANIMAL HEALTH: HOMELAND SECURITY AND THE FEDERAL 
                         VETERINARIAN WORKFORCE

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2009

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:50 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    I want to, with much aloha, welcome our witnesses to this 
hearing and I want to thank you very much for being here. The 
topic of today's hearing is an area that we want to work on and 
try to deal with, and we have invited you because we feel you 
can help us do that.
    Today's hearing, ``Protecting Public and Animal Health: 
Homeland Security and the Federal Veterinarian Workforce,'' 
will examine the results of a Government Accountability Office 
(GAO) review of the Federal veterinarian workforce. The Federal 
veterinarian workforce is on the front lines in ensuring our 
homeland security, public health, and food safety. In total, 
there are over 3,000 veterinarians working in the Federal 
Government. Their role is especially critical in areas of 
disease prevention and response.
    Although we are not facing a major disease outbreak in the 
United States right now, we must remain vigilant, and this is 
what this hearing is about. About 75 percent of newly emerging 
infectious diseases originate in animals. One example of this 
type of zoonotic disease is avian influenza. According to the 
World Health Organization, the H5N1 strain of avian influenza 
has led to over 250 human fatalities in about 400 known cases, 
over a 60 percent fatality rate. This outbreak has occurred 
overseas, but we should remember that diseases do not respect 
international borders and may prove difficult to control.
    Our livestock and food supply also could be endangered by 
animal diseases. The 2001 foot and mouth disease outbreak in 
the United Kingdom led to the slaughter of more than four 
million animals and cost the British agriculture and food 
sectors over $5 billion. Some experts believe that a similar 
foot and mouth disease outbreak in the United States could 
reduce our agricultural income by over $14 billion.
    I requested that GAO undertake a comprehensive review of 
the Federal veterinarian workforce because I was concerned that 
our Nation's homeland security, public health, and food supply 
and safety may be harmed by the growing shortage of 
veterinarians. Unfortunately, GAO's report suggests that these 
concerns are well founded. This hearing today provides us an 
opportunity to assess the state of this crucial workforce and 
ways to improve it.
    I would like to highlight a number of the issues that 
concern me in particular, which I hope our witnesses will 
address. GAO has listed strategic human capital management on 
its High-Risk Series since 2001. It is unclear why agencies, 
departments, and the Office of Personnel Management have not 
taken more steps to address the causes of human capital 
challenges in such a critical part of the Federal workforce. 
Direct hire authority is not enough. Strategic workforce 
planning through a collaborative, ongoing process to anticipate 
and resolve critical workforce challenges among Federal 
agencies, with the support of the Office of Personnel 
Management, would be a better approach.
    There is a pressing need to address Federal veterinarian 
workforce shortages. The Food Safety and Inspection Service 
(FSIS) has a 15 percent veterinarian work shortfall. Some 
veterinarians in this agency are assigned to multiple slaughter 
plants and have voiced their concerns that they cannot always 
meet their responsibilities, such as sanitation and food safety 
checks, and perform high-quality work. Although FSIS is using 
recruitment bonuses and internships to attempt to lower its 
vacancy rates, this is not a comprehensive approach to the 
problem. Due to unpleasant work conditions at slaughterhouses 
and their remote locations, along with limited professional 
development opportunities and lower pay, FSIS has difficulty 
attracting and retaining veterinarians.
    A lack of comprehensive human capital planning also leads 
to competition for veterinarians between agencies, even within 
the same department. For instance, according to GAO, many FSIS 
inspectors move to the Animal and Plant Health Inspection 
Service (APHIS) within the U.S. Department of Agriculture for 
greater pay and more appealing work. According to APHIS, 17 
percent of their veterinarian hires over a recent 4-year period 
were from FSIS.
    A wave of Federal veterinarian retirements may worsen these 
workforce challenges. More than one-fourth of the veterinarians 
at key agencies for public health and food safety will be 
eligible to retire within 3 years.
    In sum, a shortage of Federal veterinarians and lack of 
comprehensive planning to address the shortage require 
immediate, sustained, and focused attention. I look forward to 
hearing more about the issues affecting the Federal 
veterinarian workforce. We should not wait for another homeland 
security, public health, or food safety crisis to begin to 
address this problem.
    So at this point, let me call on the Subcommittee's Ranking 
Member, Senator Voinovich, a good friend and a leader in human 
capital.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. When I first 
heard about having this hearing, I thought, what are we 
spending our time on this issue for, until I got into it. We 
probably should have had this hearing 8 years ago. Senator 
Akaka and I have been working on the human capital crisis for a 
long time and we are proud of the changes that we made in Title 
V of the Federal Code, but as I read the background on this, it 
is just incredible to me where we are today.
    My brain says, where was somebody that looked back and 
looked this whole thing over and said, we have got a problem 
here? First of all, we are not producing enough of these 
people. Second of all, when you look at the pay schedule within 
the Federal Government compared to the private sector, it is 
not adequate to get the job done. You think to yourself, why 
didn't somebody bring this up to the Office of Management and 
Budget and say, look, we just can't keep going this way. So we 
just have hobbled along. Some of you have been here in your 
departments for a while. I would like to know why this wasn't 
brought to the top, or was it brought to the top and nobody 
paid attention and didn't care about it?
    But my logic tells me that, first, we are not producing 
enough veterinarians in the country, period. Second, I know 
from my experience as Governor of Ohio, it is harder to get 
into veterinarian school than it is into medical school, so 
maybe we ought to get some of these folks that are thinking 
about becoming doctors going into veterinarian school.
    And maybe we need to do what we did, Senator Akaka, I think 
indirectly you were involved in this, and that is with the 
Nuclear Regulatory Commission, where we recognized 7 years ago 
that they were closing down nuclear engineering schools around 
the country and we went up to MIT and we went to--I am from the 
University of Cincinnati--and said to them, hey, there is going 
to be a great need for these people. And today, and I am very 
proud of this, the NRC has been able to replace the people that 
have been retired and they have also been able to bring on more 
people so they can handle relicensing and also these new 
applications that are coming in for new nuclear facilities.
    So the real issue here is trying to figure out where we go 
from here, and that is the end of my statement. I will put the 
rest of it in the record. We are going to have another vote at 
3:45, so I am anxious to hear your testimony and maybe have a 
chance to ask some questions. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich, for 
your leadership.
    Let me welcome our first panel of witnesses to the 
Subcommittee today: Lisa Shames, Director of Natural Resources 
and Environment, U.S. Government Accountability Office; Nancy 
Kichak, Associate Director for Strategic Human Resources 
Policy, U.S. Office of Personnel Management; Dr. Gerald Parker, 
Principal Deputy Assistant Secretary, Office of the Assistant 
Secretary for Preparedness and Response, U.S. Department of 
Health and Human Services; Jill Crumpacker, Director, Office of 
Human Capital Management, U.S. Department of Agriculture; and 
Dr. Thomas McGinn, Chief Veterinarian and Director, Food, 
Agriculture, and Veterinary Defense Division, Office of Health 
Affairs and Office of the Chief Medical Officer, U.S. 
Department of Homeland Security.
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses and I would ask all of you to please stand and 
raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give the Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Shames. I do.
    Ms. Kichak. I do.
    Dr. Parker. I do.
    Ms. Crumpacker. I do.
    Dr. McGinn. I do.
    Senator Akaka. Thank you. Let the record show that our 
witnesses responded in the affirmative.
    Before we start, I want you to know that your full written 
statement will be made a part of the record. I would also like 
to remind you to keep your remarks brief, given the number of 
people testifying this afternoon.
    Ms. Shames, will you please proceed with your statement.

TESTIMONY OF LISA R. SHAMES,\1\ DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Shames. Thank you. Chairman Akaka, Senator Voinovich, 
and Members of the Subcommittee, I am pleased to be here today 
to discuss our findings on the Federal Government's 
veterinarian workforce. As you know, there is a growing 
shortage of veterinarians nationwide, yet GAO's overall 
conclusion is that the Federal Government has not yet assessed 
whether its veterinarian workforce is sufficient to protect 
public and animal health.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shames appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    First, at the department level, USDA and HHS, which employ 
about two-thirds of the government's veterinarians, appear to 
be unaware of the challenges their component agencies face. For 
example, as you mentioned, Chairman Akaka, USDA's Food Safety 
and Inspection Service (FSIS), has not been fully staffed for 
over a decade. This shortage is troubling because its 
veterinarians who work in the slaughterhouses told us that 
their ability to meet food safety responsibilities is impaired. 
Still, USDA reported that its agencies had met or surpassed 
certain veterinarian workforce goals and made no mention of the 
FSIS shortages.
    Further, USDA's agencies compete against one another for 
veterinarians. FSIS loses veterinarians to other parts of USDA, 
where the work is more appealing, opportunities for advancement 
are greater, and the salaries are higher. In fact, the average 
annual salary at FSIS was the lowest among USDA's agencies that 
employ veterinarians.
    Similarly, HHS was unaware that a FDA advisory committee 
reported that the Center for Veterinary Medicine was ``in a 
state of crisis.'' The Center is responsible for ensuring the 
safety of veterinarian drugs and regulating animal feed.
    Next, government-wide, at the time of our review, OPM had 
not conducted an effort to address current and future 
veterinarian challenges. We are pleased to note that early in 
February, OPM approved government-wide direct hire authority 
for agency use. This is a positive first step. Agencies' 
concerns about their workforce are likely to worsen, though, as 
large numbers of veterinarians become eligible to retire in the 
near future. For example, USDA's Animal and Plant Health 
Inspection Service reports that 30 percent of its veterinarians 
will be eligible to retire by the end of 2011. In fact, 
government-wide, 27 percent will be eligible to retire within 3 
years.
    As the shortage grows, agencies that pay veterinarians 
higher salaries have a recruitment advantage. Average salaries 
vary widely across the government, from $70,000 for the 
Department of Interior to $122,000 at the Department of 
Homeland Security.
    In conclusion, until USDA and HHS conduct department-wide 
assessments, they will not fully understand the size and nature 
of their challenges to recruit and retain veterinarians. This 
will lead their component agencies without a high-level 
solution to problems they have been unable to solve on their 
own. Moreover, OPM will not have the necessary information to 
assess current and future needs. In the end, the government 
risks missing opportunities to find common solutions to attract 
veterinarians into Federal service.
    This concludes my prepared statement and I would be pleased 
to answer any questions that you have.
    Senator Akaka. Thank you very much for your statement. Now 
I will call on Ms. Kichak for her statement.

    TESTIMONY OF NANCY H. KICHAK,\1\ ASSOCIATE DIRECTOR FOR 
  STRATEGIC HUMAN RESOURCES POLICY, U.S. OFFICE OF PERSONNEL 
                           MANAGEMENT

    Ms. Kichak. Chairman Akaka, Senator Voinovich, I appreciate 
your invitation to speak with you today about the Federal 
Government's veterinarian workforce and what the Office of 
Personnel Management is doing to alleviate shortages within 
this critical occupation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kichak appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    Veterinarians are a vital part of the Federal workforce and 
are critically important to ensuring the safety of our Nation's 
food supply and protecting public health. So the fact that we 
are experiencing a shortage in some agencies is of real concern 
to us.
    I assure you, we have been working on this problem for some 
time. OPM published the regulations implementing direct hire 
authority on June 13, 2003, and in less than 3 months, a direct 
hire authority was issued to the Department of Agriculture to 
fill veterinarian medical officer positions. Since that time, 
we have remained strongly committed to providing the tools 
necessary to assist the government in filling these critical 
positions.
    You have asked how OPM assures that plans are in place to 
identify the workforce needs such as those that arise for 
veterinarians. A critical source for early identification of 
concerns in human capital management is the Chief Human Capital 
Officers Council and its subcommittees. This organization has 
been key to bringing together the government officials charged 
with the strategic management of human capital. Another source 
of data is the human capital metrics gathered under our program 
of oversight and assistance, where we require agencies to 
undertake strategic workforce planning and identify mission 
critical occupations.
    We recognize that solving a problem like the veterinarian 
shortage is necessarily a shared responsibility because those 
who work at the sites where services are delivered are most 
often in the best position to identify effective remedies. In 
this spirit, we have worked extensively with the Department of 
Agriculture to understand their needs concerning the 
veterinarian workforce. Our efforts included convening focus 
groups of veterinarians, and our staff visited slaughterhouses 
where they worked in collaboration with Agriculture 
veterinarians to help us update our qualifications and 
classification standards. As a result, the starting grade for 
veterinarians has increased from GS-9 to GS-11, which is a 20 
percent increase in starting pay for veterinarians, and that 
happened beginning in 2007.
    On February 12, 2009, we issued the government-wide direct 
hire authority for veterinarians that will allow agencies to 
appoint veterinarians without following competitive procedures 
as long as they give public notice, and we are not done. We are 
convening a forum in March where we are going to bring together 
all the agencies that have veterinarians to discuss some of the 
shared concerns.
    We are highlighting veterinarians at the FSIS on our 
website, USAJOBS. I can share that with you. It looks really 
good. If you go to our USAJOBS website, this is one of the 
first jobs that comes up, and usually that is very effective in 
gathering applications for us. So we are going to continue to 
work at this problem and I will be happy to answer any 
questions. Thank you.
    Senator Akaka. Thank you very much, Ms. Kichak. Now we will 
hear from Dr. Parker.

  TESTIMONY OF GERALD W. PARKER, DVM, PH.D., MS,\1\ PRINCIPAL 
 DEPUTY ASSISTANT SECRETARY, OFFICE OF THE ASSISTANT SECRETARY 
 FOR PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Dr. Parker. Good afternoon, Chairman Akaka and Senator 
Voinovich. In the time allowed for my oral presentation, I will 
briefly highlight some of the myriad ways in which 
veterinarians contribute to the mission critical functions of 
HHS, specifically at the FDA, NIH, CDC, and my office, Office 
of the Assistant Secretary for Preparedness and Response 
(ASPR).
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Parker with an attachment appears 
in the Appendix on page 42.
---------------------------------------------------------------------------
    The Food and Drug Administration employs veterinarians 
throughout their Centers to ensure the safety of drugs, 
biologics devices, and foods. When issues regarding a zoonotic 
disease arise, FDA taps its veterinary resources as needed to 
address the incident or issue. As a primary role of FDA 
veterinarians in responding to zoonotic disease outbreak is to 
provide technical scientific advice and to help coordinate 
FDA's activities with those Federal, State, and local agencies, 
FDA believes this flexibility allows them to handle their role 
in responding to and supporting zoonotic disease outbreak 
investigations. FDA believes that its veterinarian workforce is 
sufficient to address current needs, but they will continue to 
work through the Department to ensure that veterinary resources 
are appropriate to fulfill anticipated future needs.
    In contrast to FDA, successful recruitment and retention of 
veterinarians at the National Institutes of Health poses a 
particular challenge to its workforce needs for the biomedical 
research enterprise. Veterinarians at the NIH must have board 
specialization in laboratory animal medicine and veterinary 
pathology and/or an advanced degree in a basic science 
discipline to pursue a research career path in the biomedical 
sciences.
    As you would suspect, very few recent veterinary graduates 
are interested in accruing additional debt immediately upon 
graduation in order to enter an additional and demanding 
residency program. I believe this disincentive is compounded by 
the realization that their veterinary training experience was 
predominately to prepare them for traditional clinic veterinary 
medicine, not biomedical research or laboratory animal 
medicine.
    Consequently, the NIH Intramural Research Program is 
experiencing a critical shortage of veterinarians to support 
the agency's broader biomedical research mission. If this 
shortage continues, it will also have a negative impact on an 
operating program in my office, the Biomedical Advanced 
Research and Development Authority (BARDA). BARDA's mission is 
to move the most promising medical countermeasures to defend 
against chemical, biological, radiological, and nuclear threats 
as well as pandemic influenza and other emerging infectious 
diseases from the research and development phase at NIH and 
elsewhere to advanced development and FDA licensure. Like the 
NIH, BARDA is also dependent upon the unique veterinary 
specialties in laboratory animal medicine, veterinary 
pathology, and comparative medicine.
    Veterinarians in the CDC work on the multidisciplinary 
public health team to identify, prevent, and control public 
health threats through applied epidemiology, laboratory animal 
medicine, toxicology, surveillance, field and clinical 
investigations, and human-animal interface research, either 
through direct hands-on work or through technical assistance 
and consultation to State and local public health stakeholders. 
For example, CDC veterinarians work with our Federal partners 
to identify potential risks associated with importation of 
animals and animal products that may cause human disease and 
they monitor the occurrence and progression of infectious 
diseases within wildlife and waterfowl.
    Veterinarians bring a unique perspective and breadth of 
scientific knowledge to the applied public health team. They 
are a valuable and unique resource and must be maintained with 
continued recruitment, retention, and training opportunities as 
they face similar challenges that I mentioned for the NIH.
    Within HHS, the ASPR, my office, provides the mechanism for 
a coordinated Federal response to supplement State, local, 
Territorial, and Tribal resources in response to public health 
and medical care needs through Emergency Support Function 8, 
under the National Response Framework. This may include 
veterinary or animal health issues for potential or actual 
emergencies or major disasters, in which we play a support role 
to provide veterinary medical services to mass care, urban 
search and rescue, and agricultural.
    Veterinary assets available within HHS that may be 
mobilized in response to a disaster include the National 
Veterinary Response Teams as part of the National Disaster 
Medical System, the U.S. Public Health Commissioned Corps 
Officers, which constitute over 6,000 health professionals. And 
although there are only 100 Commissioned Corps veterinarians at 
the current time, they have established themselves as critical 
members of that multidisciplinary public health team for 
domestic deployments and more increasingly through 
international deployments for humanitarian assistance and 
health diplomacy.
    In addition to HHS assets, we can also call upon assets in 
the Department of Defense to help in natural disasters.
    In conclusion, veterinarians serve key roles as scientists 
and program leaders in the HHS medical and public health 
enterprise. Veterinarians with advanced degree training and 
experience in the biomedical sciences and public health, as 
well as specialty training and credentials in laboratory animal 
medicine and veterinary pathology, are critical to the 
Department's biomedical research and emergency public health 
enterprise.
    Thank you for your time and your interest in this subject, 
and I will answer any of your questions.
    Senator Akaka. Thank you, Dr. Parker. Now we will receive 
the statement of Ms. Crumpacker.

 TESTIMONY OF JILL M. CRUMPACKER,\1\ DIRECTOR, OFFICE OF HUMAN 
       CAPITAL MANAGEMENT, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Crumpacker. Chairman Akaka and Ranking Member 
Voinovich, thank you for the opportunity to appear before you 
today on behalf of the U.S. Department of Agriculture (USDA), 
to update you on our activities regarding our Federal 
veterinarian workforce. My comments highlight the written 
testimony provided to you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Crumpacker appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    As you have mentioned, Mr. Chairman, USDA is the largest 
employer of the nearly 3,000 veterinarians in the Federal 
Government. To date, our mission areas that employ 
veterinarians have implemented the full range of Federal 
workforce flexibilities available, including recruitment 
bonuses, referral and retention allowances, flexible work 
schedules, student loan repayments, and most recently, 
attainment of indefinite direct hire appointing authority from 
OPM.
    Challenges remain, including most notably demand for 
veterinarians that significantly outpaces supply, changing 
demographics within the profession, stressful and remote work 
conditions, and competition with the private sector.
    Even so, USDA continues its efforts to attract 
veterinarians. To this end, we are revamping our department-
wide Human Resources Leadership Council to identify common 
issues among our agencies where we could leverage resources for 
training, development, and recruitment activities. We are using 
a model similar to NRC, by the way, Ranking Member. We are also 
working with OPM, initiating steps to obtain a government-wide 
salary survey, streamlining job announcements, and exploring 
the feasibility of an automated candidate search and 
qualifications screening tool.
    With respect to contingency or incident planning, USDA 
supports a total force approach. We continue to work closely 
with our State, local, academic, and association partners. We 
have engaged in training National Incident Management Teams, 
sought expansion and improvements to the National Animal 
Emergency Response Corps, updated our active pandemic plan, 
issued contingency plans for the use of foot and mouth disease 
vaccine while continuing to support development and application 
of new vaccine techniques. And we have continued to collaborate 
with our State, Federal, and local agencies in support of our 
mutual goals rooted in the Homeland Security Presidential 
Directives.
    Mr. Chairman and Ranking Member, veterinarians are critical 
to the USDA core mission goals of protecting the Nation's food 
supply and protecting the health of U.S. livestock. While the 
challenges of achieving a full force Federal veterinarian 
workforce are many, our ultimate goal is to be able to remove 
this occupation from our USDA mission critical High-Risk List. 
To that end, we appreciate your continued interest in 
addressing these challenges.
    This concludes my statement. I will be glad to respond to 
any questions you or the Ranking Member may have. Thank you.
    Senator Akaka. Thank you, Ms. Crumpacker. And now we will 
receive the statement of Dr. McGinn.

TESTIMONY OF THOMAS J. McGINN, III, DVM,\1\ CHIEF VETERINARIAN 
    AND DIRECTOR, FOOD, AGRICULTURE, AND VETERINARY DEFENSE 
  DIVISION, OFFICE OF HEALTH AFFAIRS AND OFFICE OF THE CHIEF 
     MEDICAL OFFICER, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. McGinn. Good afternoon, Mr. Chairman and Ranking Member 
Voinovich. On behalf of Secretary Napolitano, I would like to 
thank you for your leadership in the protection and ensuring 
the security of our country. I would also like to thank the 
more than 3,000 Federal veterinarians and their State, local, 
and academic partners serving every day to protect our Nation. 
The GAO is to be commended for this report, as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. McGinn appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    The protection of animal and public health by the Federal 
veterinary workforce is built upon two solemn oaths. The first 
oath, as a Federal employee, to support and defend the 
Constitution. The second oath, as a veterinarian, to use our 
knowledge and skills to the benefit of society through the 
protection of animal health and the promotion of public health. 
The commonality of these two oaths is protection.
    Though few in number, the veterinarians employed in DHS are 
engaged in all aspects of homeland security, including 
research, countermeasure development, policy development, 
working animal care, border protection, infrastructure 
protection, intelligence, and surveillance. DHS veterinarians 
embrace the one health concept that unites the health security 
of people, animals, and the environment.
    The veterinary workforce also has a direct impact on our 
Nation's ability to protect the critical infrastructure of food 
and agriculture that account for one in six of American jobs. 
The veterinary workforce protects animal and public health in 
the face of catastrophic incidences. This is why it is 
essential that we, one, determine the veterinary resources 
needed for a catastrophic event; two, better utilize our 
constrained resources; and three, support the development of 
the veterinary workforce to ensure recovery through enhanced 
national resilience.
    Catastrophic incidences could include an intentional food 
contamination that stretches across the Nation's food supply 
chain, creating overwhelming morbidity and mortality, a 
pandemic resulting in a 40 percent reduction in the workforce, 
or an outbreak of foot and mouth disease across as many as 30 
States. Such events could strain our current veterinary 
workforce to the point where States could no longer send 
veterinarians to other States and the Federal workforce would 
be strained.
    After a 2002 outbreak of exotic Newcastle disease in only 
three States, Dr. Ron DeHaven, former Administrator of APHIS, 
stated, ``Even with exceptional collaboration between State and 
Federal agencies and industry, the exotic Newcastle outbreak 
taxed our human resources to the max. If there had been a 
second regional outbreak or, worse, a national animal health 
emergency, we simply would not have been able to respond.''
    If it had been 30 States instead of three, what are the 
resources that we would need and where would they come from? My 
first recommendation, we must determine the requirements and 
then clearly delineate the tasks and capabilities that must be 
filled by the Federal, State, local, and Tribal governments as 
well as the private citizens and veterinarians. More should be 
done and DHS recommends a comprehensive and detailed study 
across all levels of government and the private sector to 
determine what are the requirements for a veterinary workforce 
to respond to a catastrophic incident.
    But we do not need a new study to confidently state that 
the current veterinary workforce is inadequate for catastrophic 
incidences. The GAO report found that 12 of 17 agencies did not 
have sufficient veterinarians to address zoonotic outbreaks and 
to fulfill their day-to-day responsibilities.
    My second recommendation is to better utilize our 
constrained resources by growing and training the Nation's 
veterinary workforce to effectively implement the National 
Incident Management System and provide veterinarians with a 
measured and clear understanding of the critical 
responsibilities in the event of a catastrophe.
    Through veterinary workforce planning, education, training 
exercises, and lessons learned, we can build national 
resiliency, the ability to bend and not break. To effectively 
recover and continue to feed our Nation will require a robust 
and cohesive veterinary workforce.
    My third recommendation, support the development of a 
veterinary workforce that ensures recovery and builds national 
resilience and protects our domestic food supply. We must 
advance border screening programs, educational programs, 
private sector risk reducing strategies, surveillance programs, 
and the development of countermeasures for national security. 
If our national veterinary workforce is not operating 
effectively during a food, agricultural, or veterinary 
catastrophic event, then our Nation is at risk of dependency on 
a foreign food supply.
    In closing, significant progress has been made, but we have 
much more collaborative work to do.
    Thank you again for the opportunity to testify and I will 
be happy to take any questions.
    Senator Akaka. Thank you very much, Dr. McGinn.
    I have questions for the panel. This one is for Dr. McGinn 
and Dr. Parker. It is clear to me that veterinarians play a 
crucial role in our Nation's food security, public health, and 
homeland security. What are the most significant risks if there 
are not enough Federal veterinarians to respond to catastrophic 
events such as foot and mouth disease or zoonotic disease 
outbreaks? Dr. Parker.
    Dr. Parker. Well, I think there is significant risk to our 
Nation's security and public health unless we are able to 
marshal some of the resources and begin to channel some of the 
currently available veterinarians in the country that make 
careers in public health, make careers in biomedical research, 
and so forth more attractive and competitive compared to 
elsewhere that they may go.
    Within HHS, sometimes it is hard to just categorize and 
count who actually falls in the veterinary roles because 
veterinarians in our Department actually serve as scientists on 
teams. And so sometimes it is not only the veterinarians, but 
it is also the entire scientific team that we also have to 
factor in as our critical workforce in addition to 
veterinarians.
    But veterinarians bring an extremely unique educational 
experience and background and they have established themselves 
as just critical components of a broader and larger applied 
public health team. They have established themselves as a very 
necessary component of the biomedical research and development 
enterprise. And so, unless we are able to solve some of these 
problems, we are going to be lacking in the necessary skill set 
and unique background that they bring from the entire 
enterprise, from basic research to advanced development, 
procurement of medical countermeasures, and deployment of 
countermeasures broadly to help our Nation respond to a 
catastrophic event.
    Senator Akaka. Thank you, Doctor. Dr. McGinn.
    Dr. McGinn. I would just echo his comments and add that our 
Nation's human health is at risk and our animal health is at 
risk in those sorts of situations. He did an excellent job of 
describing that.
    In addition, our jobs are at risk. I mentioned one in six 
jobs are in this food and agricultural area. In both of your 
States, more than 10 percent of the workforce is in the 
restaurant and the food service area and agriculture is No. 1 
in Ohio in terms of its economic value. So the economy is also 
at risk in terms of those sorts of things. So we don't want to 
be in a position where we go through a catastrophic event and 
we end up with a situation where we actually put this 
infrastructure at risk and the impacts are such that we 
actually are hurting these particular jobs and also being more 
dependent on a foreign supply of food.
    Senator Akaka. Thank you.
    Ms. Kichak, in GAO's report, FSIS maintained that despite 
its veterinarian shortage, the agency has been able to meet its 
food safety and other responsibilities by redistributing the 
workforce. However, the Office of Personnel Management's 
memorandum approving direct hire authority government-wide for 
Federal veterinary medical officers at the GS-11 through 15 
levels referenced the severe shortage of Food Safety and 
Inspection Service veterinarians. In your view, is there a 
veterinarian shortage at FSIS that may adversely affect public 
health or food safety if left unsolved?
    Ms. Kichak. We based the direct hire authority, which is 
given when you have a critical shortage of folks, on our 
analysis of the vacant positions cited in the GAO report, the 
movement of veterinarians out of that agency that we capture in 
our central database. So we are not the experts in how many 
veterinarians a department needs in order to complete their 
mission. We rely on them for that analysis. But what we do know 
is that they have not been filling the positions that they seek 
to fill. That is how we made our determination.
    Senator Akaka. Ms. Shames, the GAO report revealed that 
several veterinarians working in slaughter plants said that 
they were not always able to meet their responsibilities and 
perform high-quality work because of inadequate staffing. Could 
you please provide further information about how many FSIS 
veterinarians brought this to your attention?
    Ms. Shames. GAO actually visited several slaughterhouses, 
so we were able to interview the veterinarians firsthand. They 
told us directly, that it is very hard for them to meet not 
only their food safety responsibilities, but also their 
responsibilities regarding the humane handling and slaughter of 
animals.
    What the veterinarians told us is that there are shortages, 
and pressures on their time to be able to meet these 
responsibilities. What we know from the FSIS data is that for 
the last decade, there have been high vacancy rates. They 
haven't been able to meet their hiring goals. In some of the 
districts, the vacancy rates have been as high as 35 percent.
    Senator Akaka. Dr. Parker, according to the GAO report, a 
2007 Food and Drug Administration Science Advisory Report 
concluded that the Center for Veterinary Medicine was in a 
state of crisis because of inadequate staffing, training, and 
resources. What are your plans to work with this and other 
component agencies to ensure that HHS's strategic workforce 
plan better addresses your Department's challenges?
    Dr. Parker. Well, first, and I think as you know from the 
FDA's reply to that finding, there was some disagreement that 
the Center for Veterinary Medicine is in a state of crisis with 
regard to that 2007 report. That 2007 report looked at the 
overall scientific workforce and not specifically the 
veterinary workforce.
    Nonetheless, in any event, there have been a lot of efforts 
underway at FDA since then to improve recruitment of 
veterinarians, to provide new training opportunities and 
professional growth opportunities for the veterinarians that 
they do attract. Although the FDA feels at the current time 
their workforce of veterinarians is sufficient to meet the 
current needs, I will be working with them very closely. And 
they will be working with the Department very closely so we can 
better anticipate what any future needs are going to be that 
may expand beyond just the Center for Veterinary Medicine, but 
also include the broader food safety and other missions in FDA 
that support licensure of medical countermeasures necessary for 
the emergency public health medical countermeasure enterprise.
    I can do that, actually, through our Enterprise Governance 
Board (EGB) that we have established to help us provide 
strategic guidance to public health emergency matters. The EGB 
includes my boss, the Assistant Secretary for Preparedness and 
Response (ASPR), the CDC Director, the NIH Director, and the 
FDA Commissioner. One of the things that I am taking on to do 
is making sure that as our operating divisions within HHS--as 
you know, we are very decentralized--but through this executive 
body, we can help ensure that the operating divisions most 
pertinent to this mission are taking the workforce of the 
veterinarians into consideration when they do their operating 
division workforce analysis.
    Senator Akaka. Thank you.
    Let me ask Ms. Shames for any comments on HHS's response.
    Ms. Shames. Yes. We quote explicitly from FDA's own Science 
Advisory Board report that the Center for Veterinary Medicine 
is in a state of crisis. That is the phrase that they used. 
That group is responsible for the veterinarian medicine as well 
as for the animal feed, so it is a very important mission. So 
we don't mischaracterize. We don't exaggerate. We quoted 
directly from their report.
    Senator Akaka. Thank you. Senator Voinovich, your 
questions?
    Senator Voinovich. First of all, either you or some of your 
predecessors didn't do a very good job during the last number 
of years to deal with the human capital problem that we have. 
Either reports that came out were inadequate so that the Office 
of Personnel Management didn't know what the situation was, and 
if they were and OPM didn't pay attention to them and should 
have, then shame on OPM.
    But it seems to me that OPM's job should be to look out 
across the Federal Government and look at where you have crises 
like we have today--this is a big crisis, this is probably one 
of the biggest crises we have today in the Federal Government--
and to say to those people, take advantage of the direct hire 
authority that we have and we will grant it for you. Or in the 
alternative, the agencies themselves should have known about 
the direct hire and said, we need the direct hire so that we 
can go out and get the job done.
    I don't really care about the past, but I want to know, 
what are we going to do about the future? What are we going to 
do about the future? If I ask you to come back here to this 
Subcommittee, Senator Akaka and I, 6 months from now, what 
would you all do to come back to tell us what it is that you 
need to do in order to deal with this problem? Now, we are 
going to have other witnesses from the private sector. What are 
they going to do to help it? There is no question about it. We 
need more veterinarians, don't we? For sure. All right. How do 
we get them?
    The next issue is, once they are there, how do we hire 
them? You just talked about getting to GS-11, $49,000. If I go 
to work for a university, I get at least $28,000 more money. If 
I go to work for a pharmaceutical company, I can get as much as 
$96,000 more than to come to work for the Federal Government. I 
don't know what the retention rate here is. People come to work 
for you. Probably another job comes along and they get out of 
here. I would like for somebody to give me the retention rate 
that you have of your veterinarians here.
    So it seems to me the salary level is not competitive. I 
don't know what happens over at the Office of Management and 
Budget, but how many of your directors go over there and say, 
hey, folks, we can't get the job done with this salary level. 
We can't be competitive. Somebody ought to be looking at the 
fact that you have got movement from one agency to another 
because they pay more money in another agency than they do in 
the other agency that they work at.
    Tell me what you would all do to put something together, we 
can come back in 6 months and let us know what is it that you 
think needs to be done in order to deal with this problem, 
short-term, middle-term, and long-term.
    Senator Akaka. Dr. Parker.
    Dr. Parker. Those are all excellent comments and really cut 
to the heart of the matter. But if I may be so bold to at least 
start off the conversation, to propose at least, as I have been 
thinking about the problem and the dilemma, what may be more 
longer-term solutions and rely, in fact, on maybe the 
experience that helped me through my career and bring up a 
model that I think has been extremely effective in recruiting, 
training, providing educational opportunities, and channeling 
the subspecialties needed in veterinary medicine to the 
national security, homeland security needs, I will speak about 
the programs that the military, specifically, and the Army, in 
particular, had for such a long time. I think that is a model 
program for successfully bringing in young graduates into the 
Federal service.
    What was critical about that program was the opportunity at 
the time, at least in my experience, the Health Professions 
Scholarship that defrayed the costs and expenses of veterinary 
college but also began to target some of that early basic 
training environment in veterinary college, that led me to 
think about public service in veterinary college as opposed to 
purely private practice.
    That, then, coupled with the opportunity for more advanced 
training, after you experienced your worth in Federal service 
and in military service, for further advanced degree training 
in a subspecialty, be it laboratory animal medicine, be it 
comparative pathology, be it in my case physiology, a Ph.D. 
degree program.
    So that model coupled with a scholarship program for 
veterinary college, work experience, advanced degree training, 
yes, plus leadership training and other military-type 
training--and that leadership training is critical--led to the 
development of a pipeline and a career progression for a cohort 
of professionals. And this is not only true or appropriate for 
the veterinary corps, but it was also true and worked for the 
rest of the health professions, in my case, in the Army Medical 
Department.
    Senator Voinovich. Excuse me. I am planning on introducing 
legislation to provide additional scholarships to students in 
exchange for public service. What I would like to do is I would 
like to give you all copies of this legislation. I would like 
you to look at it and tell me what you think is good and what 
is bad and how we could do it better.
    But the question that I would like to have is you say you 
have a model. But what I would like to know, Ms. Shames, if 
you, as a GAO person, who would you have in the room to get the 
consensus of the folks about what needs to be done? I think the 
private sector should also be in that room, but who would be in 
that room to sit down and start to come back with these 
recommendations?
    Ms. Shames. Well, as a starting point, we feel that both 
USDA and HHS should get a better understanding of what is going 
on within their own departments. And so I think the first steps 
should be the human capital officers from their component 
agencies to clearly explain exactly what is going on in their 
departments. We talked about FSIS, for example, as well as 
FDA's Center for Veterinary Medicine. Even though strategic 
human capital management has been on GAO's High-Risk List since 
2001, as has been noted, I have to say we were surprised that 
at the department level they appear to be unaware of what was 
going on in their own backyards.
    Senator Voinovich. One of the reasons why we got the CHCO 
Council and upgraded it and told all of the departments that 
they ought to give human capital a larger priority and that it 
should be part of their annual report to the Federal Government 
was to elevate this thing, and I would be really interested, 
who are the chief human capital officers? How many of them have 
gone to the CHCO Council meetings?
    Ms. Shames. Those are good questions, and I think as a 
starting point, they need to get a basic understanding of what 
the challenges are with their component agencies.
    Senator Voinovich. So you would have representatives--just 
a final note. Who would be at the table?
    Ms. Shames. I would say their own members from their 
component agencies. It certainly helps to get external views 
from the other veterinarian stakeholders, certainly to try to 
generate ideas with the academic community and private sector 
would certainly help. I think generating ideas is always a good 
thing, but as a starting point, you need to understand what the 
challenges are within your----
    Senator Voinovich. Which one of these agencies should 
convene the meeting?
    Ms. Shames. Well, I think OPM ought to be a catalyst with 
all of this. We have talked for a long time that OPM has a 
leadership responsibility, and between OPM and the departments, 
there ought to be a shared responsibility of who is to do what. 
That was another reason for GAO putting human capital on the 
High-Risk List.
    Senator Voinovich. Mr. Chairman, I am out of time, but I 
would like to suggest that maybe we ask this group of people 
here to start and come back to us maybe in a month or 2 months 
with a plan of how people are going to get together and hear 
from the folks who are really doing the work about how we go 
about dealing with this problem so we have an idea they are 
getting together, and then maybe set a date for them to come 
back to us, say in 6 months, with a plan that is going to deal 
with this, as I mentioned, on a short-term, middle-term, and 
long-term basis.
    Ms. Kichak. We do have a meeting scheduled for March 16. At 
this time, we envisioned inviting every agency that employs 
veterinarians at the component and agency-wide level. That is 
March 16. That is scheduled. We had not intended to include 
private sector people at that time, but we are reconsidering 
that position.
    Senator Voinovich. You are the boss, Mr. Chairman.
    Senator Akaka. I am glad to hear that a meeting has been 
set up. I agree with Senator Voinovich that we should have a 
follow-up session with you and to see where you are maybe after 
the March 16 meeting.
    Senator Voinovich. Mr. Chairman, we may not even have to 
have a hearing. Maybe we could just have them in your office 
and have them come in and tell us what they are doing and then 
say, come back to us in 6 months and then we will have a 
hearing and tell us where we are going.
    Senator Akaka. All right. Well, we will figure that one 
out. Ms. Crumpacker.
    Ms. Crumpacker. As far as the USDA, we accept what the 
report says and we hear the message. You mentioned NRC and Mr. 
McDermott has been a leader and he certainly is a model for us 
to look at. We have separate agencies who have done a yeoman's 
job to the extent they can with their assessments. What we need 
to do at a department level is take those assessments and look 
at them overall, and then recognizing that those are mission 
critical occupations, they are tied directly to the mission of 
our Department, how do we leverage resources across mission 
areas? How does the Department provide leadership 
departmentally rather than what we have done, which is 
leadership for each mission area, working with OPM, but we need 
to take it another step as you have written and as you have 
said, to look at it as a USDA public service corps.
    So that is what our commitment will be, and revamping our 
HR Leadership Council of our highest-ranking HR officers in 
each mission area, they are all just chomping at the bit, 
basically, to be able to start working towards that issue. We 
recognize we need to do something.
    Senator Voinovich. Good. Thanks, Senator Akaka.
    Senator Akaka. There is no question that our Federal 
Government is facing a huge challenge, not only for 
veterinarians but throughout the system, and this is where I 
look at OPM and want to ask that question. What are we doing to 
deal with the vacancies that will come to the Federal 
Government in a few years, when many of our Federal workers 
will be retiring? Will we have the workforce to operate our 
government?
    So we need to really seriously get to this, and Senator 
Voinovich is a champion of this. We are going to be looking at 
this to see how, if we need to, we can try to bring together 
the different agencies and departments to deal with this, 
because we really have to find answers. It is not only for me. 
It is not only the economic crisis; it is also going to be a 
crisis of personnel in the government.
    What are we doing about it? I think we really need to take 
steps to begin to deal with this.
    Let me move on to another area of all of this. A pandemic 
outbreak would stress the capacity of Federal veterinarians, 
public health professionals, and others, and would require an 
integrated response across all levels of government and with 
the private sector, as well. I have long been concerned that 
our Nation is not prepared adequately for a pandemic and I have 
held a series of hearings on this issue.
    What are Federal veterinarians doing to prepare for the 
coordinated response that would be needed during a pandemic or 
widespread animal disease outbreak, and what more should be 
done?
    Dr. Parker. I will go ahead and start, if you would like. 
First, thank you for bringing this issue up. I just want to 
first say I believe that one of our growing threats that we 
have is complacency that, in fact, this is a real threat, and 
it is a real threat. But that aside, there has been tremendous 
work done over the last several years in pandemic preparedness 
planning, whether that be in the R&D phase, the development of 
new and better medical countermeasures, such as pre-pandemic, 
pandemic vaccines, antivirals, stockpiles of antivirals, and 
then the planning activities necessary to distribute and 
dispense these medical countermeasures in the event of a 
sustained human transmission of H5N1 or another virus like 
that.
    Veterinarians, at least in HHS, play a key role on every 
component and phase of that enterprise I just described. They 
are critical members of that public health team, from research 
to deployment, platforms of public health assistance to State 
and local authorities.
    But there continues to be a lot to do, a lot of issues to 
work out. This is, planning and preparedness is always dynamic. 
And the more planning and exercises that we do--you dig deeper 
into the onion and new issues arise, such as how do we do risk-
based border screening? So we are really getting down to some 
of the details of how we might do this and how we might deploy 
not only Federal folks, but to work most importantly in an 
integrated fashion nationally. We are defining better what are 
our Federal responsibilities, what are our State 
responsibilities, what are our local responsibilities, what are 
our private sector responsibilities, and most important, what 
are our responsibilities as individuals and families, as well.
    Senator Akaka. Dr. McGinn, would you comment on this 
question, too?
    Dr. McGinn. Obviously, a pandemic would result in a greatly 
limited workforce, so it makes it more essential that we are 
then coordinated more effectively. DHS is working that 
coordinated role across all the different departments and with 
the State, the local, and the private sector, as well.
    Being able to actually build that ability to coordinate 
requires that we get down to the place where we delineate 
exactly what are the tasks that are necessary to be done by 
each, Federal, State, local, Tribal, and the private sector. 
The private sector contribution is huge in a greatly limited 
workforce situation. So being able to understand the 
contribution of the private veterinarian--what USDA has done 
with the private veterinarians in developing a cadre of 
veterinarians to do that. HHS also has some private veterinary 
capability, as well, but you will hear from the AVMA and some 
of what they have done, the State Animal Response Teams. Being 
able to understand and delineate exactly what each one of these 
private sector contributions to the veterinary workforce can be 
then helps us better understand what we need the Federal 
veterinarians to do, as well.
    Veterinarians work that interface between the human and 
animal and the environmental, so we understand that if we can 
prevent a pandemic by getting out there around the world and 
working with the current avian influenza-type situations, then 
we are also doing what we can do to prevent and respond to 
these sorts of catastrophic events, as well.
    Senator Akaka. Thank you. Senator Voinovich, any more 
questions for this panel?
    Senator Voinovich. No, I haven't any. Has the vote started 
yet? I have no other questions, and maybe we can get the other 
witnesses to have a chance, unless you have more questions, Mr. 
Chairman.
    Senator Akaka. All right. Well, I have further questions, 
but I will submit them for the record.
    I want to thank all of you on the first panel. You can see 
how important this question is to our country and the need to 
get together, get the information correct, but more 
importantly, to begin to build programs so that we can deal 
with these vacancies, not only for veterinarians but for many 
other positions in the Federal Government. So I want to thank 
you. Senator Voinovich and I will be thinking of you, and don't 
be surprised when you get a call from us. Thank you very much 
to the first panel.
    Let me advise the second panel that we will take a recess. 
We will take this vote and then we will be back. When we are 
done with the votes, we will be back. This hearing is recessed.
    [Recess.]
    Senator Akaka. The hearing of this Subcommittee will come 
to order.
    I want to welcome the second panel of witnesses: Dr. Ron 
DeHaven, Chief Executive Officer, American Veterinary Medical 
Association; Dr. Gilsdorf, Executive Vice President of the 
National Association of Federal Veterinarians; and Dr. 
Pappaioanou, Executive Director, Association of American 
Veterinary Medical Colleges.
    You may know that it is the custom of this Subcommittee to 
swear in all witnesses and I would ask all of you to please 
stand and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Dr. DeHaven. I do.
    Dr. Gilsdorf. I do.
    Dr. Pappaioanou. I do.
    Senator Akaka. Thank you. Please be seated. Let the record 
note that our witnesses answered in the affirmative.
    Also, before we start, I want you to know that your full 
written statements will be made a part of the record. I would 
also like to remind you to keep your remarks brief, given the 
number of people testifying this afternoon, as well.
    So with that, Dr. DeHaven, will you please proceed with 
your statement?

   TESTIMONY OF W. RON DEHAVEN, DVM, MBA,\1\ CHIEF EXECUTIVE 
        OFFICER, AMERICAN VETERINARY MEDICAL ASSOCIATION

    Dr. DeHaven. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am Dr. Ron DeHaven, Chief Executive Officer of 
the American Veterinary Medical Association. I really 
appreciate the opportunity to testify before you today on the 
state of our Nation's veterinary workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. DeHaven appears in the Appendix 
on page 80.
---------------------------------------------------------------------------
    While the general public often associates veterinarians 
with the care of their pets, this report highlights the 
critical role of veterinarians to protect the health of our 
livestock, the safety of our food, and ultimately the health of 
our public. The AVMA is pleased to have the report confirm our 
long-held concerns about the widespread shortage of food supply 
veterinarians. Population growth and growing dependence on 
animal protein will continue to put increased demands on our 
food supply system and on those veterinarians who are 
responsible for its security, safety, and quality.
    Unfortunately, there are simply not enough veterinarians to 
meet this demand and the causes of the shortage are many and 
they are complex. The 28 accredited veterinary colleges in the 
United States graduate about 2,600 veterinarians each year, and 
that number has remained relatively stagnant for about two 
decades. This lack of growth in veterinary graduates is not due 
to a lack of applicants. To the contrary, our veterinary 
schools are operating at full capacity with qualified 
applicants outnumbering the number of seats by a number of 
three-to-one.
    AVMA shares concerns expressed in the report about the 
inadequate level of pay for Federal veterinarians. Multiple 
Federal agencies cited noncompetitive salaries as an issue 
relative to recruiting and retaining qualified veterinarians. 
Educational debt is also playing a role in this shortage. The 
National Veterinary Medical Services Act exchanges debt relief 
for commitments of service. This legislation was passed in 
2003. However, no benefits have been realized due to 
limitations in funding, delays in implementation, and the fact 
that the loan payments will be taxable income. As it stands 
today, about 46 veterinarians could benefit from the program. 
If payments under this program were made tax-exempt, the number 
of participants would increase to 75.
    Although many veterinarians benefiting from a robust loan 
repayment program might ultimately find their way to work in 
the private sector, these would be the same veterinarians who 
are often called upon into action by Federal and State agencies 
during large animal health disease outbreaks. An increase in 
the numbers would not only improve our ability to fulfill daily 
responsibilities to animal and human health, it would also add 
to the existing National Animal Health Emergency Response Corps 
and thereby help the government in the event of an animal 
disease emergency or a natural disaster.
    Mr. Chairman, we are all keenly aware that these are 
especially tough economic times for our country, but as the old 
adage goes, we can pay now or we can pay later, and if we 
choose the latter, the cost will be exponentially higher. The 
cost of expanding our veterinary schools providing debt relief 
to our graduating veterinarians and increasing the salaries of 
Federal veterinarians pales in comparison to the potentially 
huge costs associated with animal and human disease outbreaks.
    In conclusion, the findings of the GAO report present us 
with significant challenges and opportunities. I am confident 
that by working together, we can address these challenges, 
welcome many more bright minds into the veterinary profession, 
and provide our citizens the level of food safety and security 
that they expect and deserve.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you for your statement. Dr. Gilsdorf, 
please proceed with your statement.

     TESTIMONY OF MICHAEL GILSDORF, DVM,\1\ EXECUTIVE VICE 
    PRESIDENT, NATIONAL ASSOCIATION OF FEDERAL VETERINARIANS

    Dr. Gilsdorf. Mr. Chairman and Subcommittee Members, thank 
you for holding this important hearing on the Federal 
veterinary workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Gilsdorf with an attachment 
appears in the Appendix on page 88.
---------------------------------------------------------------------------
    As you know, veterinarians are a small but vital part of 
the Federal workforce. Out of the 78,000 veterinarians working 
in the United States, only 3,016 work for the Federal 
Government. They are educated and trained in a complex array of 
scientific and medical disciplines. Their training makes them 
uniquely qualified, more than any other health profession in 
the Federal Government, to protect America's animal agriculture 
and wildlife and to protect humans from zoonotic and foodborne 
diseases. In fact, when it comes to ensuring food safety, 
humane animal care, preventing animal disease incursions, and 
managing animal and zoonotic diseases, it is the Federal 
veterinarian who is on the front line.
    Because of increased food safety and bioterrorism issues, 
Federal agencies need a more robust veterinary workforce that 
is highly skilled and ready to serve, both under normal 
circumstances and in catastrophic events. At the present time, 
there are not enough veterinarians to adequately respond to the 
Nation's needs. In fact, Federal managers have personally 
shared with me their difficulties in filling the existing 
vacancies as well as their fears about the inability to fill 
future vacancies. The current and future shortages of 
veterinarians are exacerbated by the fact that there will be 
more jobs in all areas of veterinary medicine than there are 
veterinarians to fill them.
    The NAFV agrees with the GAO that a government-wide 
assessment is necessary to determine how many veterinarians are 
needed. We further recommend that steps be taken to 
dramatically improve the compensation package for Federal 
veterinarians, which would include more effective and equitable 
incentives.
    Not only must salaries be more competitive, but 
professional development, continuing educational opportunities, 
and assistance in obtaining advanced degrees is also needed. 
The average salary of the Federal veterinarian is $37,000 less 
than those veterinarians who own their practice. The average 
difference is even greater when compared with the salaries 
earned by those working in academia and industry.
    Federal veterinarians are also not paid at the same level 
as other Federal medical personnel. Physicians and dentists and 
nurses are eligible for and receive special pay above and 
beyond their base salaries. Most Federal agencies do not have 
the statutory authority that provides the same special salaries 
for Federal veterinarians, so as you had asked the previous 
group, as far as I am concerned, changing the U.S. Code to put 
in specialty pay for veterinarians would be one step that could 
be taken.
    These special statutory authorities are needed for 
veterinarians. All Federal medical personnel, including 
veterinarians, provide essential medical services to sustain 
and improve the public and human health and therefore should be 
compensated equitably. If the Federal agencies do not do this, 
then I foresee that they will continue to face challenges in 
recruiting and retaining adequate numbers in the Federal 
workforce.
    Mr. Chairman, on behalf of the NAFV, I appreciate the 
attention that is being given to this issue and your help in 
improving incentives to recruit and retain Federal 
veterinarians. It is our sincere desire that these important 
challenges be remedied in a timely fashion. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you very much, Dr. Gilsdorf. And now 
we will hear from Dr. Pappaioanou. Will you please begin.

  TESTIMONY OF MARGUERITE PAPPAIOANOU, DVM, MPVM, PH.D., DIP 
     ACVPM,\1\ EXECUTIVE DIRECTOR, ASSOCIATION OF AMERICAN 
                  VETERINARY MEDICAL COLLEGES

    Dr. Pappaioanou. Good afternoon, Chairman Akaka. I am 
Marguerite Pappaioanou, a retired veterinary commissioned 
officer of the U.S. Public Health Service and Executive 
Director of the Association of American Veterinary Medical 
Colleges, which represents all 28 colleges of veterinary 
medicine in the United States, along with several U.S. 
departments of veterinary science and comparative medicine. 
Thank you for the opportunity to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Pappaioanou appears in the 
Appendix on page 99.
---------------------------------------------------------------------------
    A national veterinarian workforce shortage is impacting the 
numbers of veterinarians going into the Federal workforce. The 
number of U.S. veterinary colleges and graduating class size 
has not changed for over 25 years, save for a single school in 
California that was established in the 1990s, despite an 
increase in our country's population of approximately 78 
million people. Our 28 colleges, located in 26 States, are a 
national resource worthy of Federal investment as their 
collective 2,600 graduates per year benefit our entire U.S. 
population across all 50 States and Territories.
    Our colleges understand the need to produce more 
veterinarians and stand ready to begin to address this need. 
For several years, however, we have been advocating for Federal 
resources to complement State funding that would permit our 
colleges to increase their class size substantially. With 
approximately 6,000 students applying each year, we do have 
extremely bright, qualified students to fill bigger class 
sizes.
    Program-wise, 22 of our 28 colleges offer programs and/or 
joint degrees in public health. Every other year, we take 300 
to 400 enthusiastic students to the Centers for Disease Control 
and Prevention to learn about disease outbreaks and careers in 
public health. Each summer, with industry and NIH, 300 
veterinary students conduct biomedical research projects and 
learn about careers in biomedical research. Also each year, 
USDA supports veterinary students to travel to Plum Island to 
learn about foreign animal diseases and their prevention and 
control.
    Despite this great interest by our veterinary medical 
students in these areas and in these programs, the Federal 
Government loses them to private clinical practice, industry, 
and academia, where the salaries are much higher. We ask that 
Congress take the following actions to address the workforce 
shortage.
    First, ensure the GAO's recommendations are implemented 
fully, by including a regular assessment of the adequacy of the 
veterinary medical workforce.
    Second, provide funds for the construction of educational 
facilities at our colleges that will enable them to increase 
class sizes. Students are standing out in the hallways. There 
is just not enough room in the current facilities to increase 
class size.
    Third, appropriate greater levels of funding for tax-exempt 
awards under the National Veterinary Medical Services Act of 
2003 for loan repayment.
    Fourth, provide funds for scholarships to veterinary 
students pursuing public health or advanced research degrees 
and to ensure that these programs for graduate research degrees 
are available to veterinarians. Often, they are restricted to 
M.D.s.
    And last, ensure that Federal positions, personnel system 
grades, and salaries are at levels comparable to what 
veterinarians are earning in private clinical practice, 
industry, and academia, along with closing the gap between what 
veterinarians make and that of our other medical colleagues.
    Thank you very much, Mr. Chairman, for this opportunity to 
visit today. I can assure you that the veterinary medical 
colleges in the United States stand ready to work with Congress 
and other partners to begin to address this workforce shortage. 
Thank you.
    Senator Akaka. Thank you for your statement, Dr. 
Pappaioanou.
    Dr. DeHaven, in your testimony, you stated that this 
country is facing a crisis if we do not act and bolster our 
veterinary forces. Will you please describe the potential 
crisis you foresee?
    Dr. DeHaven. Thank you, Mr. Chairman, for the question. I 
think that crisis could take a number of forms. In my previous 
capacity, I was the Administrator of the Animal and Plant 
Health Inspection Service, and so had largely primary 
responsibility for the response if there were a major animal 
disease outbreak.
    We estimated at the time that if there were an accidental 
introduction of foot and mouth disease in the United States, 
the cost would begin at $5 billion, and that would be if we 
were able to identify, contain, and eradicate the disease 
within 72 hours, and those numbers go up exponentially with 
every day and week and month that it would take us to contain 
and eradicate a disease outbreak such as that. In fact, our 
very economy could be held hostage to that kind of disease 
outbreak.
    It all depends on how quickly we are able to identify and 
respond to that outbreak, and that really gets down to the 
focal point, and that is the veterinary expertise, whether it 
is the laboratory diagnostician, the people in the field to 
quarantine and deal with the infected herds, and all of the 
associated activities. It all revolves around veterinarians.
    Senator Akaka. Dr. Gilsdorf, you stated in your testimony 
that due to the existing veterinarian shortages, many Federal 
veterinarians are working up to 12 hours per day and may serve 
on emergency disease outbreak task forces for long periods of 
time, putting tremendous stress on their family lives. Which 
agencies are affected most by this challenge, and what impact 
might this have on public health?
    Dr. Gilsdorf. The agencies most affected by this would be 
APHIS Veterinary Services and FSIS.
    As far as the impact on public health, we have situations, 
first of all, in FSIS, and it is stated in the GAO report, 
where veterinarians are working essentially three jobs, for 
three veterinarians, because they cannot fill those jobs. So 
they have the veterinarian driving from one plant to another, 
trying to keep up with the workload, and they are working long 
hours in order to do that. Now, you do have inspectors on the 
line and you do have consumer safety inspectors and so forth, 
but you do not have the veterinarian there as they should be to 
oversee what is going on on a constant basis.
    So I feel that is a problem. I think those veterinarians 
need to be there and do one job at a time and not try to do 
three at a time. I just don't see how they can effectively 
manage those situations for long periods of time, and that is 
the biggest problem. These situations are occuring for long 
periods of time. These veterinarians just can't continue to 
perform well for that long period of time. That is why you are 
seeing veterinarians leaving FSIS, going to APHIS or going to 
other places. This doesn't occur in all districts within FSIS, 
but it does occur a lot more than it should.
    Within APHIS Veterinary Service activities, veterinarians 
work with disease eradication programs. I retired from APHIS. I 
worked there for 33 years, and I was in charge of all the 
domestic programs at the staff level. These veterinarians work 
with disease eradication programs, and zoonotic disease 
eradication programs, such as avian influenza and tuberculosis.
    In those situations, those veterinarians, especially if 
they are called to work on disease eradication task forces, 
have to stop testing cattle for program diseases and work on an 
avian influenza or other disease task forces. It is not that 
those animals are going to be a public health threat because 
they are under quarantine, that is not a public health problem 
at that point. The issue of concern is that there might be more 
disease spread within the herd, and if any animals get out of 
the herd, then they could spread it to other herds over that 
extended length of time. I am not aware of that happening, but 
that is a potential problem in not continually working with 
those herds as they should be.
    Now, we have also had tuberculosis task forces in 
California and New Mexico where large numbers of veterinarians 
are there and are working long hours. In fact, I was told by 
one of our members that they tested 16,000 cows in one day on 
one dairy in the last couple of months. These veterinarians are 
really working hard to get the task force work completed so 
they can get back to their regular jobs.
    But the fact remains, there are not enough veterinarians in 
the agency to do the work. But again, when those veterinarians 
go on these task forces, it often strains the family relations 
because they are gone for such long periods of time and their 
spouse has to take care of the family, do all the chores, and 
so forth. And then, when the veterinarian gets back to their 
regular job, their workload in their regular job is backed up, 
so now they have to work harder on their regular job in order 
to catch up. So it does put a strain on their family life.
    Senator Akaka. Thank you very much, Doctor, for your 
statement.
    Let me ask Dr. Pappaioanou, during the 110th Congress, I 
cosponsored the Veterinary Public Health Workforce Expansion 
Act, introduced by Senator Wayne Allard. This bill would have 
created a competitive grant program that would have supported 
construction costs at veterinary schools. Although the Higher 
Education Opportunity Act of 2008 created a competitive grant 
program that included many of the provisions of the Public 
Health Workforce Expansion Act, it did not allow the funding of 
significant construction.
    To what extent would a grant program that supports needed 
construction costs help increase the number of veterinarians 
focused on public health-related matters?
    Dr. Pappaioanou. Senator, that would be the No. 1 thing 
that the government could do that would enable our colleges to 
respond. They are ready, and they have been advocating for that 
legislation and we thank you so much for your support on that. 
We were very grateful, of course, for the Higher Education 
Opportunity Act that passed for the other resources that were 
made available, but when the funds for the construction were 
taken out, that just, again, stopped the ability of the 
colleges to increase class size. Many of them have class sizes 
of somewhere around 70, 80, 100 students per class and are 
poised to go to 150 or 200 students, but it is not just simply 
lecture halls, although that is also a need, but it is teaching 
anatomy and pathology, and so very specialized facilities that 
are needed that if you add a substantial number of students 
into the class, that construction is absolutely at the core of 
the matter. This would be the No. 1 assist that the Federal 
Government could give that could really allow our colleges to 
increase those class sizes.
    We would be very willing to work with HHS, with Congress. I 
guess a comment that often has come up with the increasing 
class size is how will the colleges assure that the 
veterinarians, or that the new students coming in will go to 
these areas of need rather than to go into private practice or 
the other areas that they are gravitating towards and the 
colleges have put into place programs for recruitment and 
special training and mentoring and we are very willing, as I 
mentioned, to work with HHS and Congress to assure that 
increases that are achieved will find their way into these 
workforce shortage areas.
    Senator Akaka. I want to ask each of you to think of three 
recommendations that would strengthening the Federal 
veterinarian workforce. I want you to be as specific as you 
can, coming from your area of jurisdiction and your expertise. 
If you would offer your three top recommendations for 
strengthening the Federal veterinarian workforce, I would 
certainly like to hear it now, beginning with Dr. DeHaven.
    Dr. DeHaven. Thank you, Mr. Chairman. I think we have many 
of the mechanisms in place already to do some of the work that 
is necessary to increase that workforce. The National 
Veterinary Medical Service Act, if we had implementing 
regulations in place that would allow for student debt 
repayment for those graduates that would go into a food animal 
practice, particularly into a remote area, would go a long way 
towards addressing that problem. If we can make those payments 
tax-exempt, we can increase by at least a third the number of 
participants who can benefit from that program. So I think that 
would be one incentive, one potential fix. Granted, many of 
those graduates will go into private practice, but in the event 
of an animal health emergency, those are the same people that 
help the government respond.
    The Veterinary Public Health Workforce Expansion Act that 
Dr. Pappaioanou just mentioned will also go a long way, 
increasing capacity at the veterinary schools, but not just 
increasing capacity for the sake of increasing the numbers but 
making sure that those students going into the schools, the 
additional students would go into the shortage areas--public 
health, food supply, veterinary medicine, laboratory animal 
medicine, and some of the critical shortage areas that really 
add to the veterinary food supply workforce.
    And then potentially some scholarship programs. We heard in 
the first panel programs at the military that, in essence, pay 
the entire cost associated with a veterinary degree in return 
for a time commitment to be in the military. That same kind of 
program, scholarship program, given the student debt that our 
veterinary graduates are coming out of school with, would go a 
long way to incentivize students to go into these critical 
shortage areas, again, particularly in the food supply, 
veterinary medicine arena.
    So I think, Mr. Chairman, those are three areas that would 
go a long way towards addressing this problem.
    Senator Akaka. Thank you very much for that. Dr. Gilsdorf, 
your three recommendations, please.
    Dr. Gilsdorf. OK. Well, I would agree with Dr. DeHaven's 
suggestions and recommendations. I would add the No. 1 issue 
that I think would bring more veterinarians into the government 
and help us retain more veterinarians and even encourage fewer 
veterinarians to retire early is salary. There is just not an 
equity in salary at this point, as I have already pointed out 
earlier.
    The biggest problem with that is the veterinarians do not 
have the opportunity to get special pay, which other medical 
personnel in the government receive. And so if the statutory 
authorities could be obtained and the funding, of course, that 
would really encourage them to stay on board.
    For example, there are two specialty pays the Army offers 
right now. One is board certification, but board certification 
is not something that is offered in all the Federal agencies. 
In other agencies, people that are board certified do not get 
recognition.
    In addition to that, the military veterinarians get one 
other specialty pay and that is $100 a month for being a 
veterinarian in the military. That has not changed since the 
mid-1950s or before. Whereas other medical personnel had 
started at that level, but now receive up to $1,000 or $1,200 a 
month. There is a discrepancy there and I don't know why, but I 
do know the military veterinarians that I have talked with feel 
this is a big issue and that if this issue that could be taken 
care of and it would entice them to stay longer in the 
military.
    But again, those are two specialty pays that are already in 
place only in the military and not in other Federal agencies, 
except at Health and Human Services within NIH. HHS has some 
authorities within a small section of that agency to pay 
veterinarians specialty pay. That is less than 2 percent of the 
veterinary workforce. The majority of the agencies do not have 
the authority to pay special pay to veterinarians.
    The next suggestion would be professional development, and 
that includes everything from training courses in leadership to 
continuing education. A lot of our veterinarians want to 
maintain their State licenses so that they keep up with new 
technology, what is new in veterinary medicine, this requires 
continuing education every year, depending on the State, up to 
20 to 40 hours per year. Many veterinarians want to continue 
maintaining their license. However, in agencies like FSIS, the 
veterinarians duties are already stretched so far that the 
agency can't allow them to attend training courses because they 
don't have anyone to replace them. Therefore, they don't get 
those professional development opportunities.
    A lot of our veterinarians would also like to get advanced 
degrees and try to use those within the government to help 
advance the government. A lot of those opportunities are not 
there.
    And the last suggestion I have for increasing the Federal 
workforce is to look at hiring private veterinarians in some 
capacity. I know there are different efforts that are on board 
right now, but I think they need to be enhanced and 
strengthened. Thank you.
    Senator Akaka. Thank you for your more than three 
recommendations.
    Now, may I ask Dr. Pappaioanou for your three 
recommendations?
    Dr. Pappaioanou. Thank you, Mr. Chairman. Well, as we have 
discussed before, our first recommendation would be passage of 
the National Veterinary Medical Services Expansion Act to 
provide Federal funding for the construction of facilities that 
would allow our colleges to increase class sizes substantially.
    The second would be really looking at the student debt area 
of loan repayment programs and increasing the appropriation for 
the National Veterinary Medical Services Act of 2003 and making 
those awards tax exempt, and then on the other side, to provide 
scholarships for veterinarians now to go into areas of public 
health and advanced research degrees.
    When I am often out talking with our veterinary students 
about this, they want to go after degrees in public health. But 
when they are looking at an average debt load of $120,000 with 
a 4-year veterinary program, staying that additional year to 
incur an additional $35,000 or $50,000 of debt that it would 
take for an MPH and then--and I will get to the last point--
they are wondering about the salaries and the jobs that they 
might end up in, it stops them from pursuing this option. That 
is a major challenge.
    So definitely debt repayment and scholarships. And often 
the programs that are developed for research degrees are aimed 
at physicians. I can't tell you how many programs are 
advertized or posted, and as a veterinarian, you are all 
excited. You are looking at it and you think, boy, that is 
great, and then you see it is for physicians only. It happens 
all the time. So anything we can do to encourage HHS and USDA, 
any government program that is providing funding for advanced 
research degrees to include veterinary medical personnel as 
able to compete for and obtain that funding would be important.
    Last, education is not going to do it alone. Often, the 
question comes up by our students considering these areas, but 
what jobs are out there? We are not hearing about the jobs. We 
see job descriptions and they are for physicians. They are for 
nurses. They don't say veterinarian, even though the jobs are 
those that veterinarians can do and actually do bring their 
special expertise to, such as Dr. Parker mentioned in his 
testimony. So there is no question but that making it clear 
what the jobs are, their salary, the incentive pay, retention, 
all of those things need to be sufficant and clear, so that the 
students see the opportunity.
    The interest is there. As I say, we have hundreds of 
students who go to CDC, who are doing research projects. It is 
phenomenal. But somehow between those programs and the time 
they leave, we have lost them, and so the job opportunities 
can't be overemphasized in terms of getting them in.
    And then I would also just like to support Dr. Gilsdorf's 
point on retention. To make this very real, and I will mention 
just a personal example, as I left the Centers for Disease 
Control and Prevention, where I worked for 21 years, my 
counterparts, those peers who were physicians, were making 
$50,000 a year more than me on three and four and five special 
pays. The only difference in our training really was the M.D. 
and the DVM and the training was comparable. Research--too, I 
had more degrees than many of them did, and actually, there 
were junior people who worked for me that didn't have graduate 
degrees, didn't have 20 years of experience, hadn't done 
research, no publications, compared to my resume, and they were 
making $30,000 a year more than me.
    Now, I got to 20 years, which is when I could retire, and I 
did. So the retention part of it didn't work very well for me. 
Now, maybe CDC would say, well, we are glad that she left 
anyway. I humbly offer this as just one example that the 
numbers are very real and they really do matter greatly, not 
only in terms of getting people to come in, but also to stay. 
Thank you.
    Senator Akaka. Well, thank you very much, all three of you, 
and Dr. Pappaioanou for your recommendations, as well.
    I would like to thank all of you again. You have addressed 
many of the most pressing workforce challenges facing Federal 
veterinarians. You also have provided many valuable 
recommendations to ensure that this vital workforce can meet 
its missions to support food safety, public health, and 
homeland security. You pointed out the important role that a 
veterinarian plays in this.
    I would like to emphasize once again that we need to take a 
strategic approach to resolving these critical issues, and that 
is our motive here. This involves making proactive, interagency 
cooperation to address workforce challenge, the rule and not 
the exception.
    The hearing record will be open for 1 week for additional 
statements or questions from other Members of this 
Subcommittee.
    But again, I want to tell you, you have been helpful, and 
we know there is a crisis out there and we have to move as 
quickly as we can to bring these ideas together and to begin to 
deal with this crisis. You have offered many good 
recommendations that we will certainly consider. I look forward 
to maybe pulling all of you together again to see where we are 
in a few months, and the reason for this is to see that we mean 
business and we want to try to deal with this problem that we 
are facing.
    So with that, thank you again so much. This hearing is 
adjourned.
    [Whereupon, at 5:08 p.m., the Subcommittee was adjourned.]

















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
